No.
IN THE

SUPREME COURT OF THE UNITED STATES

JOHN HARRIS, Petitioner,

-vs-

PEOPLE OF THE STATE OF ILLINOIS, Respondent.

On Petition For Writ Of Certiorari

To The Appellate Court Of Illinois

PETITION FOR WRIT OF CERTIORARI

NOTICE AND PROOF OF SERVICE

Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago, IL
60601, eserve.criminalappeals@atg.state.il.us;

Mr. Patrick D. Daly, Deputy Director, State’s Attorneys Appellate Prosecutor, 730
East IL Hwy 15, Ste. 2, Mt. Vernon, IL 62864, O05dispos@ilsaap.org;

Mr. James A. Gomric, St. Clair County State’s Attorney, 10 Public Square,
Belleville, IL 62220, james.gomric@co.st-clair.il.us;

Mr. John Harris, Register No. B90098, Western Illinois Correctional Center, 2500
Rt. 99, Mt. Sterling, IL 62353

The undersigned, a member of the Bar of this Court, in compliance with Rules 29 and
33.2, on February 22, 2021, mailed the original of the Motion for Leave to Proceed In
Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the above Court and
submitted an electronic copy using the Court’s electronic filing system. On that same
date, the undersigned served one copy of the same documents on opposing counsel and
on petitioner by depositing them in the United States mail, postage prepaid and
addressed as above. An electronic version was also served by email to opposing counsel.
All parties required to be served have been served.

hy LZ 3 PS .

ELLEN J. CURRY, Counsel of Regord
Office of the State Appellate Defénder
Fifth Judicial District

909 Water Tower Circle

Mt. Vernon, IL 62864

(618) 244-3466
5thDistrict@osad.state.il.us
COUNSEL FOR PETITIONER

   
